<html>
<title> - VISA REVOCATIONS II: STILL POROUS, SLOW TO FIX</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





             VISA REVOCATIONS II: STILL POROUS, SLOW TO FIX

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2004

                               __________

                           Serial No. 108-253

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-048                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
KATHERINE HARRIS, Florida            JOHN F. TIERNEY, Massachusetts
                                     DIANE E. WATSON, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 13, 2004....................................     1
Statement of:
    Ford, Jess T., Director, International Affairs and Trade, 
      U.S. General Accounting Office; Tony Edson, Managing 
      Director, Office of Visa Services, U.S. Department of 
      State; Donna A. Bucella, Director, Terrorist Screening 
      Center, Federal Bureau of Investigation, U.S. Department of 
      Justice; Robert M. Jacksta, Executive Director, Border 
      Security and Facilitation, U.S. Customs and Border 
      Protection, U.S. Department of Homeland Security; and 
      Robert Schoch, Deputy Assistant Director, U.S. Immigration 
      and Customs Enforcement, U.S. Department of Homeland 
      Security...................................................    12
Letters, statements, etc., submitted for the record by:
    Bucella, Donna A., Director, Terrorist Screening Center, 
      Federal Bureau of Investigation, U.S. Department of 
      Justice, prepared statement of.............................    35
    Edson, Tony, Managing Director, Office of Visa Services, U.S. 
      Department of State, followp question and response.........    93
    Ford, Jess T., Director, International Affairs and Trade, 
      U.S. General Accounting Office, prepared statement of......    15
    Jacksta, Robert M., Executive Director, Border Security and 
      Facilitation, U.S. Customs and Border Protection, U.S. 
      Department of Homeland Security, prepared statement of.....    45
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     6
    Schoch, Robert, Deputy Assistant Director, U.S. Immigration 
      and Customs Enforcement, U.S. Department of Homeland 
      Security:
        Letters dated July 12, 2004..............................    79
        Prepared statement of....................................    54
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3

 
             VISA REVOCATIONS II: STILL POROUS, SLOW TO FIX

                              ----------                              


                         TUESDAY, JULY 13, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Duncan, Schrock, Kucinich, 
Ruppersberger, and Watson.
    Staff present: Lawrence Halloran, staff director and 
counsel; Thomas Costa, professional staff member; Robert A. 
Briggs, clerk; Jean Gosa, minority assistant clerk; and Andrew 
Su, minority professional staff member.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled Visa Revocations II: Still Porous, Slow to 
Fix, is called to order.
    Entry by a non-citizen into the United States is a 
privilege, not a right. For a variety of reasons, a request for 
a visa may be denied. If those reasons arise only after a visa 
is issued, it can be revoked. The discretionary process of visa 
revocation is an important tool used by the Departments of 
State and Homeland Security, DHS, to protect our borders.
    But when a visa is revoked after the alien has arrived 
here, what happens? Thirteen months ago, at a hearing on visa 
revocation as a counter-terrorism tool, the General Accounting 
office, GAO, described a process riddled with flawed 
communications within and between agencies. Poor coordination 
and haphazard followup meant suspected terrorists who entered 
the United States were not being tracked or removed. Parallel 
inconsistent data systems treated visa revocation actions 
differently, creating confusion about the number, as well as 
the status of aliens no longer welcome here.
    We were assured the problems would be fixed. We were told 
new procedures were being implemented to share visa revocation 
information quickly and effectively. We were assured the 
language of the visa revocation instrument would be reviewed to 
close the apparent loophole making the revocation effective 
only after the alien left the United States.
    We asked GAO to audit compliance with those commitments. 
More than a year later, GAO reports some progress in 
strengthening revocation processes, but finds continual delays 
and disconnects plaguing the system. Information about visa 
revocations based on terrorism concerns can still take weeks or 
months to appear on watch lists used at the border.
    DHS may not investigate some aliens who enter or remain in 
the United States on a revoked visa. Additionally, discussions 
of a regulatory change to permit removal of an alien holding a 
revoked visa seem stuck in a legalistic and bureaucratic 
quagmire.
    Border security against terrorists depends on multiple 
layers of protection. One of those layers, the visa revocation 
process, remains partially blind and needlessly porous to 
incursions by individuals who might pose a grave risk to our 
security. We continue to look for a far sharper use of the visa 
revocation tool to turn away, or if necessary, remove anyone 
intent on abusing the privilege of visiting our shores.
    We know all our witnesses share that goal, don't have any 
doubt about that, and we look forward to their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T8048.001
    
    [GRAPHIC] [TIFF OMITTED] T8048.002
    
    Mr. Shays. At this time the Chair would recognize Mr. 
Kucinich and ask if he has a statement.
    Mr. Kucinich. Yes, thank you very much, Mr. Chairman. And 
thank you to the witnesses.
    It's disappointing that are holding another hearing on this 
matter. Last June when the subcommittee held a hearing on visa 
revocation problems, we were told by GAO that anywhere from 100 
to 200 U.S. aliens, who we suspected terrorists, could be 
freely entering and moving around inside our country. Yet in 
many instances, we could not take any actions to investigate or 
even locate these individuals.
    How could this be the case? Once again, agencies in the 
U.S. intelligence community did not talk to one another or even 
share information about suspected terrorists with each other. 
There were different lists of suspected terrorists, different 
lists of immigrants who had their visas revoked, even different 
lists on which all of these people were still in the country.
    The subcommittee was told that the problem would be fixed, 
that better communication between the State, Homeland Security 
and the FBI would resolve these problems. We also expected that 
a regulatory solution could be worked out by those agencies so 
that suspected terrorists could be immediately deported from 
the United States, even if the terms of their entry visa had 
not been violated.
    Over a year has passed now, and the GAO tell us that many 
problems remain with our visa revocation process. While an 
informal process has been established now to notify 
intelligence screeners of individuals on a terrorist watch 
list, delays and communication problems persist. By the time a 
border inspector or immigration investigator begins to look for 
a suspect, weeks may have gone by.
    I understand that GAO even found instances where it took 6 
months or longer for State and DHS personnel to simply match 
the names of terrorists or suspected terrorists with 
individuals whose visas had been revoked. This is simply 
unacceptable. I don't know if any of these individuals are 
terrorists or not, but what I do know is it should not take 6 
months or more to locate these persons.
    So I would just like to submit the rest of the record for 
the record.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T8048.003

[GRAPHIC] [TIFF OMITTED] T8048.004

[GRAPHIC] [TIFF OMITTED] T8048.005

[GRAPHIC] [TIFF OMITTED] T8048.006

    Mr. Shays. I thank the gentleman.
    At this time, the Chair would recognize John Duncan, the 
gentleman from Tennessee.
    Mr. Duncan. Thank you very much, Mr. Chairman, for calling 
this important hearing. I know just a week and a half ago, the 
Washington Times had a major story that said suspected 
terrorists are not kicked out of the United States after their 
visas are revoked, even though Congress last year asked the 
Department of Homeland Security to fix a legal loophole that 
has allowed more than 100 people with links to terrorism to 
skip deportation.
    One of our first witnesses sums up this situation and says 
that we have backlogs and long delays in screening names of 
terrorists against the State Department's data base. Current 
visa holders and delays and backlogs in transmitting 
recommendations to revoke individual visas, delays and backlogs 
in revoking individual visas after receiving a recommendation 
to do so, delays in requesting that field offices investigate 
individuals with visas revoked on terrorism grounds who may be 
in the country. This is a very serious matter, and it's not a 
problem, a situation of money. Because we're giving all of 
these departments and agencies all kinds of money and big 
increases in appropriations to handle these types of problems.
    I remember, the INS is not here with us today, but I 
remember after it was pointed out that 15 of the 19 terrorists 
involved in the September 11 incidents were here illegally that 
one of our colleagues, Congressman Gallegly from California, 
was on 60 Minutes. The INS had claimed that it was underfunded 
and he pointed out that we had given INS a 250 percent increase 
in funding over the previous 8 years, which was about 10 times 
the rate of inflation. So there's plenty of money around, but 
apparently, there are still some problems that need to be 
worked on. So I look forward to hearing these witnesses, and I 
appreciate your calling this hearing. Thank you very much.
    Mr. Shays. I thank the gentleman. At this time, the Chair 
will recognize Mr. Ruppersberger.
    Mr. Ruppersberger. First thing, I want to thank you for 
bringing this issue back to the table. We know that GAO is 
going to be releasing a report today about where we need to go 
with respect to visa revocation process. I think it's about 
time we all stopped the blame game. We need to identify the 
issues that are there and then move forward.
    I'm interested today in hearing where we need to go in the 
future and what we need to do to fix the problem to address the 
issue. Hopefully that's what the testimony will show today, so 
that we can start implementing. Because we all want the same 
thing, and that's our national security. Thank you.
    Mr. Shays. I thank the gentleman.
    At this time, the Chair would recognize the distinguished 
gentleman from Virginia.
    Mr. Schrock. I thank you, Mr. Chairman. I too want to thank 
you for holding this hearing and my friend, Mr. Duncan, said it 
all, and he said it very well.
    I read the notes last night from the meetings we've had in 
the past, and it seems like we're asking the same old 
questions. You heard Mr. Ruppersberger say a report's coming 
out today on where we ought to go. There ought to be a report 
coming out today on where we've been and how this thing has 
been fixed. I think we're getting tired of waiting. This 
terrorism thing isn't going to get any better, and I'm hoping 
the witnesses today will come up with some concrete answers 
that will get us an idea of where we are, because it's clearly 
gone on entirely too long.
    I guess if the chairman has to have these hearings every 2 
or 3 months, he'll have to have them every 2 or 3 months. But 
this thing's got to get resolved and it's got to get answered. 
I appreciate you all coming today and certainly look forward to 
hearing what you have to say.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    At this time I'd ask unanimous consent that all members of 
the subcommittee be permitted to place an opening statement in 
the record, and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record and 
without objection, so ordered.
    At this time, we will announce our one panel, our only 
panel. I appreciate all of them coming and allowing us to 
crunch you into one table here. Mr. Jess T. Ford, Director of 
International Affairs and Trade Division, U.S. General 
Accounting Office; Mr. Tony Edson, who is the Managing 
Director, Office of Visa Services, U.S. Department of State; 
Ms. Donna A. Bucella, Director, Terrorist Screening Center, 
Federal Bureau of Investigation, U.S. Department of Justice; 
Mr. Robert M. Jacksta, Executive Director, Border Security and 
Facilitation, Bureau of Customs and Border Protection, U.S. 
Department of Homeland Security; and Mr. Robert A. Schoch, 
Deputy Assistant Director, National Security Investigations, 
Bureau of Immigration and Customs Enforcement, U.S. Department 
of Homeland Security.
    At this time, I would ask our witnesses to stand so I may 
administer the oath. Please raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all our witnesses have 
responded in the affirmative.
    I think we'll go down the list as I called you. So I'll ask 
you, Mr. Ford, to put that mic in front of you, speak nice and 
loud.

STATEMENTS OF JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
  TRADE, U.S. GENERAL ACCOUNTING OFFICE; TONY EDSON, MANAGING 
 DIRECTOR, OFFICE OF VISA SERVICES, U.S. DEPARTMENT OF STATE; 
DONNA A. BUCELLA, DIRECTOR, TERRORIST SCREENING CENTER, FEDERAL 
BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE; ROBERT M. 
JACKSTA, EXECUTIVE DIRECTOR, BORDER SECURITY AND FACILITATION, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
 SECURITY; AND ROBERT SCHOCH, DEPUTY ASSISTANT DIRECTOR, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Ford. Mr. Chairman, members of the subcommittee, I'm 
pleased to be here today to discuss the report that we are 
issuing today on the visa revocation process and the steps that 
the Department of State and Homeland Security and other Federal 
agencies have taken to improve the use of this process as an 
anti-terrorism tool.
    In June 2003, we reported that agencies lacked written 
procedures to ensure that appropriate personnel are notified 
and take specific actions when the Department of State revokes 
visas on terrorism grounds. As a result, lookouts were not 
always posted. Other agencies were not always notified of visa 
revocations and there were potential investigative gaps on 
individuals with visas revoked based on terrorism concerns who 
were in the United States.
    We recommended that the Secretary of Homeland Security, in 
conjunction with the Secretary of State and the Attorney 
General, develop specific policies and procedures for 
interagency visa revocation process to ensure that information 
is transmitted to the appropriate immigration and law 
enforcement agencies in a timely manner. We also recommended 
that they develop a specific policy on actions that immigration 
and law enforcement agencies should take to investigate and 
locate individuals who remain in the United States after their 
visas have been revoked.
    At your request, we examined whether the weaknesses in the 
visa revocation process identified in June 2003 were being 
addressed. The Departments of State and Homeland Security took 
some actions in the summer of 2003 to address the weaknesses 
identified in our June 2003 report. State and the U.S. Customs 
and Border Protection Office, a component of DHS, developed 
procedures outlining their respective processes for handling 
visa revocations.
    However, our analysis of visas revoked based on terrorism 
concerns from October through December 2003 revealed that 
weaknesses remained in the implementation of the visa 
revocation process, especially related to timely transmission 
of information among the Federal agencies. For instance, we 
found delays sometimes occurred in screening names of suspected 
terrorists against State Department data base for current visa 
holders.
    We found delays in transmission of recommendations to 
revoke individual visas. We found some delays in the revoking 
of individual visas after receiving a recommendation to do so 
from the terrorist tracking center. We found delays in posting 
appropriate lookouts used to alert border inspectors of the 
revocation. Also in notifying DHS of visa revocations.
    And finally, we found that there were delays in 
investigating individuals with visas revoked on suspected 
terrorism grounds who may be in the country. For example, based 
on our sample, we found that it took over 2 months for 
immigration officials to initiate investigations on individuals 
identified. We also found that agencies involved in the visa 
revocation process had conflicting records on how many visas 
were revoked for terrorism concerns, and whether individuals 
who held these visas may be in the country.
    Our review of visa revocations showed that DHS has located 
individuals in the country whose visas were revoked because 
they may be suspected or actual terrorists. DHS officials told 
us that some are still being investigated, three have been 
arrested on immigration charges and others have been cleared.
    With respect to an alien already present in the United 
States, the Department of State's current visa revocation 
certificate makes the revocation effective only upon the 
alien's departure. Therefore, according to DH officials, if 
U.S. Immigration special agents locate an alien for whom State 
has issued a revoke certificate that states that the revocation 
is effective upon his departure, they would be unable to place 
the alien in removal proceedings based solely on the visa 
revocation.
    State, DHS and Justice have been discussing how to resolve 
this issue for the past year. And State and DHS officials 
recently told us that they have reached informal agreements to 
take necessary actions on a case by case basis. Since we 
initiated our inquiry, State and DHS have taken additional 
actions to address the weaknesses we identified from our 
analysis. State and DHS believe these actions will avoid the 
delays that were experienced in the past. In April and May, 
State made significant revisions to its procedures and 
formalized its tracking system for visa revocation cases. 
Between January and May, DHS took steps to develop additional 
written procedures, improve the sharing of information on visa 
revocation cases, and ensure that immigration investigators 
were aware of individuals whose visas were revoked who may 
still be in the country.
    Finally, State and DHS began discussing how to address the 
legal and policy issues regarding the removal of individuals 
with revoked visas. In addition, the terrorist screening center 
and interagency organization established under the FBI in 
December 2003 recently took steps to improve the visa 
revocation process, including developing written standard 
operating procedures related to the screening of intelligence 
information and training additional staff to perform this 
function.
    Nevertheless, additional measures are needed to further 
improve the process. The written policies and procedures often 
neither contain performance standards such as timeframes for 
completing individual steps in the process, nor do they reflect 
a fully coordinated approach in the process. As a consequence, 
we are recommending that the Secretary of Homeland Security, in 
conjunction with the Department of State, work jointly with 
other appropriate agencies to develop a written, Government-
wide policy that clearly defines the roles and responsibilities 
and sets performance standards for the agencies involved in the 
visa revocation process.
    We also recommend that DHS and State address the 
outstanding legal and policy issues related to removing 
individuals with revoked visas from the country, and by October 
1st of this year, provide Congress with a list of actions that 
they intend to take.
    This concludes my opening statement and I would be happy to 
answer any questions you may have to ask.
    [Note.--The General Accounting Office report entitled, 
``Border Security, Additional Actions Needed to Eliminate 
Weaknesses in the Visa Revocation Process,'' may be found in 
subcommittee files.]
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC] [TIFF OMITTED] T8048.007
    
    [GRAPHIC] [TIFF OMITTED] T8048.008
    
    [GRAPHIC] [TIFF OMITTED] T8048.009
    
    [GRAPHIC] [TIFF OMITTED] T8048.010
    
    [GRAPHIC] [TIFF OMITTED] T8048.011
    
    [GRAPHIC] [TIFF OMITTED] T8048.012
    
    [GRAPHIC] [TIFF OMITTED] T8048.013
    
    [GRAPHIC] [TIFF OMITTED] T8048.014
    
    [GRAPHIC] [TIFF OMITTED] T8048.015
    
    [GRAPHIC] [TIFF OMITTED] T8048.016
    
    [GRAPHIC] [TIFF OMITTED] T8048.017
    
    [GRAPHIC] [TIFF OMITTED] T8048.018
    
    [GRAPHIC] [TIFF OMITTED] T8048.019
    
    [GRAPHIC] [TIFF OMITTED] T8048.020
    
    [GRAPHIC] [TIFF OMITTED] T8048.021
    
    [GRAPHIC] [TIFF OMITTED] T8048.022
    
    [GRAPHIC] [TIFF OMITTED] T8048.023
    
    Mr. Shays. Thank you, Mr. Ford.
    Mr. Edson.
    Mr. Edson. Good morning, Mr. Chairman, members of the , 
subcommittee. I appreciate the opportunity to testify today on 
the subject of visa revocations, where they fit into the 
overall strategy of strengthening the visa process as an anti-
terrorism tool, and the improvements we've made in the 
revocation process.
    The use of the revocation authority is one element in a 
multi-layered, interlocking system of border security measures. 
We act when relevant derogatory information becomes available 
after a visa has been issued to an applicant, who at the time 
of visa issuance appeared eligible for the visa. Since the 
attacks of September 11, we have used this authority to revoke 
more than 1,250 visa based on information suggesting possible 
terrorist activities or links.
    When the terrorist screening center receives derogatory 
information about an alien, the subject's name is immediately 
entered into the Department of State's consular lookout and 
support system CLASS, or name check system, into that data base 
and into the Department of Homeland Security's IBIS data base, 
prior to determining whether the subject has been issued a 
visa. This safeguard prevents further visa issuance or 
admission into the United States. The consolidated consular 
data base of more than 70 million visa records is then checked 
to determine if a visa has ever been issued to the individual 
in question.
    If it appears that a visa has been issued to a terrorist 
suspect, the TSC forwards the derogatory information to the 
visa office at the Department of State, which reviews the 
information to ensure that it pertains to the individual who 
was issued a visa. When we determine there is sufficient 
evidence that links the visa holder to the derogatory 
information, the visa is formally revoked.
    In most cases, the revocation has been prudential, rather 
than based on a definitive finding that the alien is 
inadmissible. This is in part because at the time of 
revocation, we're often unable to conclude with certainty that 
the visa holder is the same as the subject of the derogatory 
information.
    Nevertheless, given the seriousness, given the terrorism 
related nature of the information that may relate to the visa 
holder, we deem it prudent to revoke the visa promptly after 
the information becomes available and to rely on the visa 
application process to resolve identity and other questions at 
a later time, in case the visa holder reapplies.
    We work closely with our partners in the revocation process 
to make sure that the fact that a visa has been revoked is 
disseminated to those in other agencies who need to carry out 
followup action. However, it is important to note that long 
before this communication and coordination takes place, 
safeguards have been put in place to prevent the traveler from 
entering the United States. Visa revocation usually takes 
effect upon the departure of the visa holder from the United 
States. This approach was agreed to a number of years ago among 
the Department of Justice, the Immigration and Naturalization 
Service and State to minimize the likelihood that persons in 
the United States would be permitted to block the revocation 
process in our courts.
    Since September 11, we have worked closely with the 
Department of Homeland Security to evaluate when and under what 
circumstances it might be appropriate and helpful to DHS for 
the Department of State to make its revocations effective 
immediately or even retroactively for persons physically 
present in the United States.
    We have agreed that revoking visas effective immediately 
when an alien is at a port of entry allows DHS to deny entry on 
the grounds that the alien does not have a valid visa. We have 
also agreed that revoking a visa retroactively to the time of 
issuance could be helpful to DHS in the case of an alien in the 
United States by allowing it to place the alien in removal 
proceedings on the grounds that he entered without a valid 
visa.
    Because these scenarios raise a number of legal issues, 
however, we have agreed that States should revoke in this way 
only on a case by case basis, at the request of DHS. DHS will 
make such requests when it has confirmed that the presence of 
the alien in the United States may pose a significant security 
risk. We are also working with DHS on its efforts to draft a 
regulation that would facilitate DHS in appropriate cases 
removing from the United State an alien who has been admitted 
by whose visa has been revoked.
    Visa revocations are an important tool in maintaining the 
security of our borders and our Nation. We and our colleagues 
in the Department of Homeland Security are committed to 
furthering our mutual efforts to keep persons who would do us 
harm out of the country and to taking every step in our power 
to safeguard our borders.
    Thank you.
    Mr. Shays. Thank you very much.
    Ms. Bucella.
    Ms. Bucella. Good morning, Chairman Shays, members of the 
subcommittee. Thank you for the opportunity to discuss the 
missions and objectives of the Terrorist Screening Center as 
they relate to the visa revocation process.
    First, I'd like to say a few words about our overall 
mission. Homeland Security Presidential Directive 6 ordered the 
creation of the TSC, and our operations began on December 1, 
2003. Our mission is to consolidate the U.S. Government's 
approach to screening for known and suspected terrorists, and 
to provide for the appropriate and lawful use of terrorist 
information in the screening process.
    A year ago, this subcommittee held a hearing on visa 
revocation. Chairman Shays noted that the Departments of State, 
Homeland Security and Justice bring disparate practices, 
informal customs, and clashing cultures to what should be a 
seamless process. Since our inception, the Terrorist Screening 
Center has facilitated communications and coordination among 
these agencies through both physical and automated processes.
    The TSC is a dynamic, multi-agency center, including 
participants from the Department of Justice, Homeland Security, 
State, and Treasury. Our consolidated data base, the Terrorist 
Screening Data Base, contains information on known or suspected 
terrorists, complied by the intelligence community, the FBI, 
DHS and the State Department. Names and identifying information 
from our data base are accessed daily by 18,000 agencies with 
National Crime Information Center, NCIC, terminals and by State 
Department consular officials.
    Because our data can be accessed by any police officer in 
real time, we have dramatically improved one aspect of the visa 
revocation process: locating the subject. If a police officer 
stops a vehicle for speeding, he will run the name of the 
driver and often the passengers through an NCIC check. If one 
of the vehicle's occupants is shown to have a terrorist related 
revoked visa, the TSC assists in the identification process and 
transfers the officer to the FBI's counter-terrorism watch for 
an operational response from the Joint Terrorism Task Force.
    How is this different from a year ago? Last year, the 
officers simply issued a speeding ticket without knowing that 
the driver or passengers might be known or suspected terrorists 
with revoked visas. In fact, the encounter would have neither 
been communicated to the intelligence community nor coordinated 
with Federal law enforcement.
    Another aspect of visa revocations is the coordination 
among agencies. State Department assignees now screen visa 
applications and revocations at our center, a function that was 
earlier performed at the State Department. They have daily 
interaction with DHS and DOJ personnel. This interaction has 
paid off recently when a suspected terrorist arrived on an 
international flight and went through routine screening. His 
name was shown in our data base and the TSC was contacted for 
further identifying information.
    This particular case was coordinated by DHS and the State 
Department personnel in real time, physically located at our 
center, allowing the visa to be immediately revoked and for the 
individuals to be denied entry into the United States. At our 
center, the TSC State Department assignees alert their consular 
affairs counterparts to review specific cases for visa 
revocation.
    The TSC, an inter-agency entity, is well positioned to 
assist communications between agencies. In May, we chaired a 
meeting of the U.S. Government agencies involved in the visa 
revocation process to discuss ways to better coordinate the 
Government's response after the State revokes a visa. Although 
we began our operations in December, by March we had 
consolidated 10 of the 12 data bases listed in the April 2003 
GAO report. That data base, through the NCIC, is available to 
appropriate screeners, including local law enforcement, border 
inspectors, consular officials and others with appropriate 
access.
    We participate in the visa revocation process by 
facilitating communications and coordination among agencies and 
consolidating terrorist screening information into a single, 
accessible data base. I appreciate the subcommittee's interest 
in our activities, and I look forward to answering any 
questions that you may have regarding TSC's operations.
    Thank you.
    [The prepared statement of Ms. Bucella follows:]

    [GRAPHIC] [TIFF OMITTED] T8048.024
    
    [GRAPHIC] [TIFF OMITTED] T8048.025
    
    [GRAPHIC] [TIFF OMITTED] T8048.026
    
    [GRAPHIC] [TIFF OMITTED] T8048.027
    
    [GRAPHIC] [TIFF OMITTED] T8048.028
    
    [GRAPHIC] [TIFF OMITTED] T8048.029
    
    [GRAPHIC] [TIFF OMITTED] T8048.030
    
    [GRAPHIC] [TIFF OMITTED] T8048.031
    
    Mr. Schrock [assuming Chair]. Thank you, Ms. Bucella. We 
appreciate your being here, too.
    Mr. Jacksta.
    Mr. Jacksta. Good morning, members of the subcommittee. 
Thank you for this opportunity to appear today before you to 
update you on our efforts to formalize and reinforce the role 
of Customs and Border Protection in the visa revocation 
process. I am also pleased to be here with my colleagues.
    CBP firmly believes that the visa revocation process is the 
key component of the layered defense that we deploy in 
conducting our primary anti-terror mission. For CBP, a great 
deal of progress has been made on a number of fronts since June 
of last year. I would like to provide a brief status update on 
our efforts in this area before turning to our response to the 
General Accounting Office's recommendations.
    Prior to the arrival of international travel at air and 
seaports, CBP screens these travelers using electronic 
manifests provided by the carriers. CBP checks the names of 
passengers and crew members in the Interagency Border 
Inspection System, a name driven data base that includes 
lookouts from the Department of Homeland Security, the 
Department of Justice and the Department of State. CBP's 
National Targeting Center also reviews manifests for potential 
items of interest and can highlight passengers for additional 
screening, or in certain cases identify passengers who CBP 
officers will meet plane-side.
    Beginning June 2003, CBP began training inspectors with 
Customs and Immigration background to function as members of 
joint rover and analytical units. These teams cover terrorism, 
immigration and narcotics enforcement concerns in the passenger 
environment. Additionally, these joint teams have received 
counter-terrorism training since September 2003.
    CBP has now delivered counter-terrorism response training 
to over 1,700 CBP officers. This training provides procedures 
to follow when a terrorist referral is made from an inspector, 
an advanced lookout or a cold stop by a CBP inspector. We have 
highly trained officers and we are working aggressively to 
provide them with the additional specialized training they need 
to meet our constantly evolving anti-terrorism missions.
    Since we testified on the topic of visa revocations in June 
2003, CBP has addressed the operational concerns identify by 
GAO. CBP's role int eh revocation process is to prevent holders 
of revoked visas from gaining entry into the United States. To 
this end, we have taken steps to formalize internal procedures 
for processing visa revocations, enhanced the automation tools 
that support the process and ensure that information sharing is 
timely is consistent.
    The CBP verifies that visa revocations issued by the 
Department of State are properly posted in our IBIS system, and 
that any lead information is promptly provided to Immigration 
and Customs Enforcement for investigation. CBP recognizes that 
ICE is independently vetting visa revocations for lead 
information; however, CBP suggest that our efforts, rather than 
being redundant, offer an additional source of information 
against which ICE can validate its findings.
    CBP personnel now follow a written work flow outline for 
visa revocations which includes specifications instructions for 
verifying that the revocation has been posted in IBIS, 
conducting the proper checks to determine if the subject may be 
in the United States, consistently recording results of the 
visa revocation process, and ensuring that ICE is notified 
where CBP feels that the subject of the revocation is in the 
United States.
    It should be noted that the presence of ICE, FBI, TSA, and 
CBP's National Targeting Center has greatly streamlined the 
sharing of information. In order to improve and strengthen our 
procedures for interdicting travelers who may be traveling on 
revoked visas, CBP has identified visa revocation in our 
automated targeting system and assigned them the highest risk. 
This places passengers suspected of traveling on revoked visas 
on our start page, where they are identified as high risk 
passengers prior to arrival. This enhancement to ATS allows CBP 
personnel to easily identify these travelers.
    Additionally, our National Targeting Center closely 
monitors these high risk passengers and works directly with 
local ports of entry to respond to exactly matches and to 
resolve close matches.
    Finally, CBP has developed a pilot program, the Immigration 
Security Initiative, to further improve our effectiveness in 
identifying terrorists, criminals and other inadmissible 
passengers prior to boarding. In June 2004, CBP deployed four 
officers to the Netherlands, a visa waiver country, for a 90 
day ISI pilot program. Not only will CBP now have an 
opportunity to examine passengers prior to boarding, but 
airlines will have the opportunity to consult with trained CBP 
officers during the check-in and boarding process.
    Identifying and preventing the entry of persons, be they 
using fraudulent documents to conceal their true intentions 
about the purpose of their visit, or because they have had 
their visa revoked is a key responsibility of CBP. Applying 
GAO's recommendation to our process helps CBP to better fulfill 
its mission at the ports of entry. The procedures work. A 
review of the National Targeting Center activity log for the 
last 12 months shows that they have stopped 72 people and 
refused them entry into the United States based on revocation 
hits.
    In conclusion, CBP is dedicated to enforcing the visa 
revocation program cooperatively with our colleagues. And I 
thank you today for having the opportunity to testify and I 
will address questions at the end.
    [The prepared statement of Mr. Jacksta follows:]

    [GRAPHIC] [TIFF OMITTED] T8048.032
    
    [GRAPHIC] [TIFF OMITTED] T8048.033
    
    [GRAPHIC] [TIFF OMITTED] T8048.034
    
    [GRAPHIC] [TIFF OMITTED] T8048.035
    
    [GRAPHIC] [TIFF OMITTED] T8048.036
    
    [GRAPHIC] [TIFF OMITTED] T8048.037
    
    [GRAPHIC] [TIFF OMITTED] T8048.038
    
    Mr. Schrock. Thank you, Mr. Jacksta.
    Mr. Schoch.
    Mr. Schoch. Good morning, distinguished members of the 
subcommittee. Thank you for the opportunity today to update you 
on the improvements made to the visa revocation process by U.S. 
Immigration and Customs Enforcement, ICE.
    Identifying and investigating individuals who pose 
potential threats to the security of the United States is a 
critical task in fulfilling ICE's mission of preventing 
terrorists and other criminal activity by targeting the people, 
money and materials that support terrorists and criminal 
organizations. Strengthening the visa revocation process and 
utilizing all of ICE's unique authorities to investigate, 
prosecute and remove individuals with revoked visas from the 
United States is an important tool in the war against 
terrorism.
    Central to the ICE national security mission is the 
National Security Investigations Division within the Office of 
Investigations. The National Security Division is comprised of 
investigative units that apply traditional customs and 
immigration authorities needed to effectively combat the threat 
of terrorism and to enhance our national security.
    As you are aware, the visa revocation process involves a 
coordinated effort by many members of the Federal law 
enforcement community. In June 2003, the Government 
Accountability Office identified weaknesses in that process, 
including difficulties in receiving the visa revocation cables 
and a lack of specific derogatory information behind those 
cables. ICE addressed these weaknesses. However, a followup 
report by GAO released today identified the need for additional 
coordination between DHS and the State Department and for the 
implementation of performance standards, such as specific 
timeframes for completing each step of the process.
    I am pleased to describe the actions that ICE has taken to 
address the concerns raised by GAO. ICE has thoroughly reviewed 
our role in the visa revocation process and has implemented a 
number of aggressive changes to increase the efficiency and 
coordination of visa revocation investigations. The following 
are key changes that have been made since June 2003: The State 
Department now transmits daily visa revocation notifications to 
ICE electronically via e-mail as they are issued, allowing for 
ICE to initiate more timely investigations; The State 
Department now provides a terror screening center [TSC], 
reference number for every national security revocation based 
on a TSC record that allows ICE to retrieve the specific 
derogatory behind the revocation with certainty; The State 
Department, the TSC and ICE now reconcile visa revocation lists 
to ensure that all visa revocation cases have been received by 
the investigating agencies; All national security visa 
revocation cases identified by State Department are prioritized 
by ICE. Those identified by the TSC as having a nexus to 
terrorism are given the absolute highest priority and are 
jointly investigated by ICE and the FBI through the Joint 
Terrorism Task Force.
    Over the last year, ICE has investigated hundreds of visa 
revocation cases. Just last month, ICE agents in Atlanta 
arrested the subject of a visa revocation referral on an 
overstay violation. The subject, an Afghani national, is listed 
in the TIPOFF data base, was identified by the TSC as a person 
of interest. This case was initiated by ICE, coordinated 
through the JTTF, all within approximately a 30 day time 
period.
    While some cases have led to arrests, many of the referred 
cases are ultimately closed through the determination that the 
subject of the revocation has either never entered the United 
States, has departed from the United States or has been cleared 
as not in fact being a national security threat. In cases where 
the investigation concludes that the subject is not in the 
United States, ICE ensures and coordinates with CBP and State 
to ensure the proper looks are placed on these individuals.
    As you are aware, neither existing regulations nor statutes 
expressly provide for the removal of aliens based solely on 
visa revocations. Revocation of a visa is not explicitly a 
stated ground of removal under the Immigration and Nationality 
Act. State Department's visa revocation certificate generally 
states that the revocation shall become effectively immediately 
on the date that the certificate is signed unless the alien is 
already in the United States, in which case the revocation will 
become effective immediately upon the alien's departure from 
the United States.
    Therefore, if an ICE special agent locates an alien in the 
United States for whom State has issued a visa revocation 
certificate, ICE would be unable to place the admitted alien in 
removal proceedings solely based on the visa revocation that 
had not yet taken place. However, State Department and DHS have 
recently agreed that on a case by case basis, the Department of 
State will consider issuing a superseding revocation 
certificate to make the revocation effective retroactively to 
the date of issuance of the visa. Such a change in the language 
of the certificate may make it possible for DHS to place an 
alien in removal proceedings.
    DHS and the Department of State have also exchanged letters 
to ensure that the two agencies are aware of operational steps 
that each are taking when a visa revocation occurs. These 
letters essentially define the roles and responsibilities of 
each agency involved in the visa revocation process. DHS and 
State are also considering formalizing letters into a 
memorandum of understanding.
    In summary, the Department of Homeland Security and ICE 
have worked diligently to strengthen our Nation's security by 
implementing new procedures and refining old procedures. We 
continue to work closely with our partners in a mission to 
assure that any and all threats are addressed and challenged by 
our agency's full authority. We appreciate the extensive work 
and cooperation by GAO in the review of the visa revocation 
process. I thank you for the opportunity to be here toady and 
speak to you and look forward to any questions that you may 
have.
    [The prepared statement of Mr. Schoch follows:]

    [GRAPHIC] [TIFF OMITTED] T8048.039
    
    [GRAPHIC] [TIFF OMITTED] T8048.040
    
    [GRAPHIC] [TIFF OMITTED] T8048.041
    
    [GRAPHIC] [TIFF OMITTED] T8048.042
    
    [GRAPHIC] [TIFF OMITTED] T8048.043
    
    [GRAPHIC] [TIFF OMITTED] T8048.044
    
    [GRAPHIC] [TIFF OMITTED] T8048.045
    
    [GRAPHIC] [TIFF OMITTED] T8048.046
    
    [GRAPHIC] [TIFF OMITTED] T8048.047
    
    [GRAPHIC] [TIFF OMITTED] T8048.048
    
    Mr. Schrock. Thank you, Mr. Schoch.
    I have a couple of real long questions, but I want to ask 
Mr. Ford, I guess my key question is why does it take so long, 
why does it take so long. Your testimony on page three says, 
Immigration and Customs enforcement would be unable to place an 
alien in removal proceedings based solely on a visa revocation 
that has not yet taken place. Help me understand that, and why 
that is the case.
    Mr. Ford. Our understanding of the process is that the 
revocation itself, based on the State Department's certificate, 
does not really take effect until an individual actually leaves 
the country, that they in effect--somebody that's here 
illegally, their visa status doesn't change until they actually 
leave. Therefore, the concern----
    Mr. Schrock. Why?
    Mr. Ford. Why?
    Mr. Schrock. Doesn't the status change until they leave? 
Why isn't it instant?
    Mr. Ford. My understanding is, the interpretation of their 
legal staff is that they----
    Mr. Schrock. The legal status or legal staff?
    Mr. Ford. The legal staff at the State Department, it is my 
understanding their interpretation of the law is that they 
can't or won't change the certificate to make it either 
retroactive or to make it the day that they actually do the 
revocation. Actually, I would prefer to have the State 
Department comment on that, because this is, in my view, a 
policy issue that probably needs to be discussed in terms of 
whether or not that's the right kind of policy.
    Mr. Schrock. Does anybody else want to comment on that? Mr. 
Edson.
    Mr. Edson. I think one of the issues is the distinction 
between the visa, which is the travel document that allows them 
to apply for entry at the border, and the admission by DHS. 
We're revoking only the visa. So for an individual who's in the 
United States, unless it were to be retroactive to the date of 
issuance, it has no legal effect, since they're already here 
and they're not using the visa at that point until they travel 
internationally. But we are now in agreement with DHS on steps 
that can be taken to reword that revocation certificate when 
it's appropriate and when DHS feels it's useful.
    Mr. Schrock. Is that something that a legislative fix will 
solve?
    Mr. Edson. I think we have the fix now. The DHS is looking 
at other changes on the regulatory-legislative side. But we 
have a way to work together when DHS sees it to be in their----
    Mr. Schrock. As I heard Mr. Ford say, some people interpret 
or fail to do such and so, and does it need to be so specific 
that they'll know what it is exactly and they don't have to go 
in there and interpret it for themselves?
    Mr. Edson. Our preference, if I could, the revocation 
process is a very blunt tool. We use a very low standard of 
evidence when we revoke visas. We revoke most of them 
prudentially just because we feel it's prudent and not because 
we've actually proven a thing.
    We are concerned that we not tie the hands of the Secretary 
and DHS in using this tool bluntly and broadly. We'd like to be 
able to continue to do that, and we are a little concerned 
about things that would open it up to further judicial review 
or more specifically, if we always had to revoke in a 
particular way, i.e., retroactive back to the date of issuance, 
we're concerned that we might find ourselves using or being 
forced to use a higher standard of evidence in these cases.
    For example, we recently revoked five people's visas based 
on a single piece of derogatory information that clearly 
referred to only a single person. We had no way to know which 
of those five it was, so we went ahead and revoked them all 
because we were able to do that. If we had to use a higher 
standard of evidence we'd have to spend more time trying to 
figure out which of the five with those matching names was the 
appropriate person.
    And that's the sort of concern we're facing.
    Mr. Schrock. This is probably along the same lines, and 
it's a long, convoluted question, so bear with me. I understand 
we face serious legal ramifications and obstacles in removing 
an alien who's already in country and has his visa revoked. And 
I recognize that the Immigration and Nationality Act calls for 
a judge to conduct proceedings to determine if the alien has 
been removable, and that the alien has rights to question 
witnesses, which I think is ridiculous, see evidence and so 
forth.
    I further recognize that intelligence and law enforcement 
organizations will be reluctant to disclose such potentially 
classified information due to releasing sources and methods. 
Where or how can we meet in the middle to get a better grip on 
this situation and frankly, expel potential terrorists and 
aliens who are here for whatever reasons, criminals, suspected 
terror connections, whatever, and have come to meet the 
criteria for having their visas revoked after they enter our 
borders? It seems like we're being a little too lenient on some 
of these people.
    When I had cancer, they cut out a whole bunch of stuff 
around the cancer, just to make sure we got it all. If they had 
taken out just the cancer part, they might have missed some of 
it. Thank God they didn't. Maybe that's what we're dealing with 
here. I don't know. Tell me.
    Mr. Edson. I'd like to comment briefly, and then maybe if I 
could, defer to my colleague from ICE. But the situation you 
describe is precisely why we think the working arrangement 
we've come to at DHS is the best way to go. So on a case by 
case basis, if it looks as if the evidence is clear and the 
risk to the United States warrants revocation retroactively, on 
balance against the down sides that you just mentioned, then 
DHS would request that of us and that's what we would do.
    Mr. Schrock. Does anybody else want to comment?
    Mr. Schoch. I can comment. On any situation where we had a 
person we identified, our agents are out working, we identify 
this individual as being in the United States, I think first we 
would look at the status. We currently do this in all of our 
cases, whether or not this person is still conforming to the 
status they were admitted for. That's first and foremost.
    If they are in status and there is a national security 
concern that remains, then we can also, and working with the 
intelligence and law enforcement community, we can get certain 
information that can be declassified, and we can go in and work 
with national security removable grounds that exist today. That 
would be second.
    We have recently, as was pointed out by the State 
Department, we recently have this agreement that I think also 
is a stop-gap measure that helps us tremendously in that on a 
case by case basis we can now go back retroactively and now we 
have somebody who is presently in the United States who has not 
been admitted with a valid visa, gives us the grounds to put 
that person in proceedings. We have three different ways to 
handle that situation.
    Mr. Schrock. Being basically an inpatient, does it take 
this long, this long, this long? And if it takes this long, 
why? Because a lot of bad things can happen when it takes this 
long.
    Mr. Schoch. I think the system we have in place now is 
immediate, it's immediate.
    Mr. Schrock. Good.
    Mr. Schoch. We have BTS level that would talk to the State 
Department, these actions would be taken immediately.
    Mr. Schrock. Great. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Let me get to the issue that the GAO 
report stated that the State and DHS, this is for Mr. Edson and 
Mr. Schoch, that the procedures regarding the visa revocation 
are not coordinated and lack performance standards, such as 
specific timeframes and process. Do you agree with that 
statement, and if not, where do you think we are right now as 
it relates to performance standards?
    Mr. Schoch. Let me speak to, in March of this year we put 
in place several different procedures, basically to audit and 
make sure that we are meeting the timeframes that were 
acceptable for these types of cases. We now, as ICE use the 
TECS-II system, it's a tracking system that allows us to put 
all of our cases in it. That was new to ICE that recently has 
come into the fold. So we have put measures in place that 
within receipt of the revocation from State, within 7 days our 
headquarters has to get that.
    Mr. Ruppersberger. How recently has that been in effect?
    Mr. Schoch. I'd say within the last couple of months that 
has been in place. We have also, the field, having now, as lead 
is sent out to our TECS system, they have 7 days to also 
respond back to us. We have very tight, measurable timeframes 
that are put in place specifically to ensure that the field is 
responsive, that we are responsive. And not to mention another 
layer is every week we reconcile with the State Department to 
ensure that what they're sending us is what we actually got. 
And there's this weekly reconciliation to ensure that we are 
getting what they are pushing to our agency as a referral.
    Mr. Ruppersberger. Let me ask you this, and again, Mr. 
Edson or Mr. Schoch. It seems the information sharing 
notification of visa revocation among agencies, especially your 
two agencies, has been done internally or on an informal basis. 
Do you believe that a Government-wide policy should be created 
and be in effect to deal with this issue? And there are 
advantages and disadvantages for that, too.
    Mr. Edson. We've gotten to the point, I think particularly 
with the creation of TSC, when TSC was stood up in December, 
there are pretty consistent policies being followed now for 
information sharing. We actually appreciate very much the 
opportunity to work with GAO on reviewing our processes, 
because they bring an auditor's eye to the process that we 
don't always use.
    Mr. Ruppersberger. And they bring accountability, which is 
extremely important.
    Mr. Edson. Yes. And they give us the opportunity to look at 
things like the performance standards. We had over-used the 
word ``immediately,'' or ``as soon as possible'' in our 
standard operating procedures, and now have very specifically 
indicated when things have to happen by the end of the same 
working day.
    We have very specifically worked out with ICE, CBP, the 
National Targeting Center and TSC the methods, and we have 
redundant, overlapping methods of communication for all of 
these cases, so that we're, with those overlapping methods of 
communication and the weekly reconciliations with different 
agencies involved, and other things we've got in the works, a 
consolidated, we developed a module for our own data base that 
all of the agencies involved in this process will use for 
reporting and accountability, so that we can track cases 
together through the same module. It won't be multiple data 
bases.
    I think those things together are going to enable us not 
only to share the information effectively, which we're probably 
already doing, but to verify that it's being shared 
effectively, to get at the core of the GAO report, and that's 
our inability to actually have full, 100 percent assurance and 
an audit trail.
    Mr. Ruppersberger. A question for Ms. Bucella. I know in 
the past that the intelligence community felt that the visa 
revocation process was a vulnerability to the United States. 
Since the last GAO report up until now, and what you're aware 
of with the testimony we've heard today and the process and 
procedures that have been in place, do you still feel, based on 
your position, that the visa revocation process is still a 
vulnerability to the United States as it relates to terrorism 
and national security?
    Ms. Bucella. Yes, sir. Initially, when we stood up, we are 
looking at the Government's processes and procedures with a 
totally fresh look. The Terrorist Screening Center, as I 
mentioned to you before, is a multi-agency organization. The 
one advantage that we really have is that we have 
representatives from all the different agencies co-located 
where we are.
    So every time we would have an encounter, that is, someone 
stopped on the road for a routine traffic stop, we would have 
somebody there from State, somebody from CBP, ICE, DHS, and the 
FBI. When the officer would pull the person over, we would find 
out who this person is, and if there was a visa that had been 
revoked, we'd say when was it revoked, and DHS, ICE and CBP, 
when did they come into the country, where did they come into 
the country and how.
    And then what we require to do, that's when we found out 
that there was in fact some vulnerabilities. We realized that 
there was not a written process of how we had agreed on sending 
information back and forth, and what we would do once we found 
the individual. So we started a series of meetings back in, I 
guess April we saw this vulnerability, in May, and we started 
to talk on a pretty routine basis and came up with a written 
business process which we shared, I believe with GAO, on what 
we would do when we had information about a revoked visa.
    When the State Department would revoke a visa, real time 
right at our center, we would enter it through our CBP and ICE 
people, right into IBIS and right into the CLASS system. So for 
the first time, every Government agency had the information 
real time. All they had to do was access NCIC.
    And this was a hole that we decided we needed to work 
together on. And we're endeavoring to do that. That is one of 
the challenges that I believe we all have. But for once we are 
all sitting at the same table, working a written business 
process together.
    Mr. Ruppersberger. Yes. We have a lot of challenges out 
there. And we have a lot of people working on a lot of issues. 
It takes a lot of coordination. Unfortunately sometimes we get 
caught up in our own little world, in our own projects, and we 
forget about the integration of all information we need to get 
to the people that can react. And the Terrorist Screening 
Center, the purpose is to very quickly identify someone that 
can be a threat to the United States.
    Now, what do you feel needs to be done, from your 
perspective, working with the Terrorist Screening Center, to 
make things even more effective than they are now, and maybe 
relate to Homeland Security and State? Because it seems to me 
that's where we really have to bring that coordination together 
and that integration.
    Ms. Bucella. We as the Terrorist Screening Center have only 
been in existence for about 8 months. And so what we are, as we 
see an issue, we deal with it right then and there.
    Fortunately, because of the structure of the Terrorist 
Screening Center, I'm a DHS employee. That's who pays my 
paycheck. But I am, the Terrorist Screening Center is 
administered by the FBI. So I immediately report to Bob 
Mueller, the Director of the FBI. So I don't have that 
bureaucratic delay.
    Because we have representatives, one of my deputies, my 
principal deputy is from DHS, he was former CBP. My other 
deputy is from the FBI. My other deputy is from the State 
Department. They're all at levels that they can literally 
penetrate into those organizations without dealing with the 
bureaucracy and waiting for the delay time in receiving 
information and getting information.
    Unfortunately, we don't have the wisdom and maturity of 
experience. That could be a good thing, and it could be a bad 
thing. What we are doing now, though, is as we see an issue, 
we're trying to fix it. But I believe that we are on the right 
road. I will tell you, we don't have cables that come into the 
Terrorist Screening Center. We have e-mail. E-mail comes in a 
lot faster. We can just literally pick up the phone when 
there's a visa that's been revoked and contract and coordinate, 
which we do with the National Targeting Center, which is the 
Department of Homeland Security's operations center. We are in 
constant communication with them on a daily basis.
    Mr. Ruppersberger. It seems to me that what you're focusing 
on is where we need to be. Are we there from a technology point 
of view?
    Ms. Bucella. I don't believe we're there from a technology 
standpoint.
    Mr. Ruppersberger. Explain why you think that.
    Ms. Bucella. When we stood up, we were announced in 
September. My staff, probably about 10 of us were there in 
October. But we had to be fully operational 24/7, call center 
by December 1st, which we were. And we had to borrow and take 
everyone's data bases so we had accessibility and the ability 
to communicate real time with the different agencies, to 
include the intelligence community.
    We are now developing a data base which will be accessible 
by other Government agencies as well as the intel community. 
But that is under current development and probably will not be 
done until the beginning part of next year.
    Mr. Ruppersberger. The thing that worries us all, and we 
look at September 11 and we look at the mistakes we've made so 
we can hopefully correct those mistakes, but what really I'm 
hearing today is that we still have a way to go as far as 
stopping maybe a terrorist out on the road somewhere, getting 
that individual, that police officer on the street, getting it 
to the agencies that need to react on it.
    Ms. Bucella. Let me clarify. I'm not waiting for us to have 
the super-duper communications system. We're doing go-arounds. 
So if I could, I'd like to explain to you how an encounter 
works on the street and what we do as far as communicating with 
not only everybody at this table, but the intelligence 
community.
    A law enforcement officer stops someone for speeding, for 
example, going 100 miles an hour down the road. Right now, that 
law enforcement officer either, on his vehicle if he has the 
NCIC, or if he contacts his dispatcher, will put the person's 
name into the data base, into the NCIC. There will be an 
indication that will come up, please contact the Terrorist 
Screening Center, with the telephone number. They will contact 
us. Our staff, as a 24/7 call center, has representatives from 
each of the different agencies and quite frankly, at our 
center, I have CBP people accessing FBI data bases, and I have 
FBI agents that are accessing CBP data bases. It truly is a 
partnership.
    That will----
    Mr. Ruppersberger. Are you working with JTTF also?
    Ms. Bucella. Yes, and I'll explain how they are the 
operational arm. The law enforcement officer and/or the 
dispatcher will call in and give us a name. We'll ask for the 
date of birth and the passport number, country of origin. Right 
now, those are the four sources of information that are not 
classified that we can have in our data base.
    However, because law enforcement is not involved 
necessarily in the intel community, any information they 
solicit from the individual we can add into our data base. For 
example, height, weight, any kind of distinguishing marks, sex, 
those types of things.
    We then facilitate and help that law enforcement officer to 
be able to identify that person is in fact the person that is 
in our data base as a known or suspected terrorist. Name alone 
is not enough. And just because they get the monitor to say, 
please contact us, doesn't mean they have a terrorist. So we 
listen to the information that they are sharing with us.
    We also have accessibility to classified information. So 
for example, if we have information from the former State 
Department TIPOFF system, which has classified information, for 
example, had distinguishing marks like, the individual has only 
one right arm, we may say to the officer, please describe what 
he looks like, height, weight, anything else. Well, he doesn't 
have an arm.
    We do not tell that officer, bingo, you've got somebody, 
nor do we tell him the individual only has one arm, because we 
are very cautious about not sharing classified information. If 
it appears that person that the law enforcement officer is 
encountering is in fact the same person that we have in our 
data base, we then forward the phone call to CT Watch, Counter-
Terrorist Watch, at the FBI. They then give instruction or 
advise that law enforcement officer----
    Mr. Ruppersberger. And give us the time period that all 
this is occurring.
    Ms. Bucella. This happens probably on average within 10 
minutes. And by the way, the only reason why they would get the 
Terrorist Screening Center is that there has to be information 
that this individual is related to terrorism. We do not have 
the absconders or murderers, only if it relates to terrorism.
    So the law enforcement officer then gets forwarded, we just 
touch a button, they're conferenced in with the CT Watch, CT 
Watch then gives them instructions, either arrest the 
individual because there is an indictment, there is a charge 
document, ask questions, and the questions that they can ask 
them will be those routine questions in law enforcement, or 
there could actually be questions that the case agent, and that 
could either be from the intel community or from the law 
enforcement community, would ask. If you encounter this 
individual, what do you want to know. Well, I'd like to know 
where he's been, I'd like to know, does he attend the 
university of whatever. Those questions are then given to the 
law enforcement officer. And the law enforcement officer 
solicits that information.
    The other category is detain the individual. If for 
example, in the first example I gave, people driving 100 miles 
an hour, fortunately they've violated, and this in fact did 
happen in the United States, they violated a State law. And the 
law enforcement officers could in fact arrest the individual. 
If it appears that is in fact a person, the CT Watch dispatches 
out the JTTFs at the local communities. There's probably about 
86 of them around the country. And the JTTFs go out and assist 
the law enforcement officer.
    The law enforcement officer may not ever know who had the 
original case, may not know that DIA or the CIA is looking at 
this individual.
    Mr. Ruppersberger. One other thing I want to ask you, and I 
ask you, Mr. Chairman, for a little more time. There are two 
issues. First thing, if someone's going 100 miles an hour and 
you catch them, and that's fine, that's reactive. How about the 
issue of being proactive as it relates to your organization, 
the Terrorist Screening Center? Someone that's not going 100 
miles an hour, are you investigating those individuals whose 
visas have been revoked and that we also are attempting to 
find? How are you doing that?
    And the second question, because I know my time, would be 
volume. I know one of the problems we have is volume. NSA, look 
at the volume they deal with. How, based on the program from 
your perspective, working both in Homeland Security and in FBI, 
how are we dealing with the volume as it relates to this issue. 
Maybe Mr. Ford might want to come in on that. That's the end of 
my questions. Thank you.
    Ms. Bucella. I'm going to answer the first question first, 
sir, because that deals with those individuals that haven't 
violated a State law. Those individuals that haven't violated 
State law, the law enforcement officer gathers that information 
from the individual. If that person, if there's a revoked visa, 
what we do is then, through the JTTF, I need to clarify that 
the Terrorism Screening Center is, think of us as a 
clearinghouse or pointer system. We do not investigate.
    We have the operational arm, which is the JTTF, which could 
in fact be someone from CBP, ICE or the FBI. They then send out 
leads, because we want to make sure, for example, if that 
person whose visa has been revoked, who now is in the United 
States, what are they doing, where are they. The JTTF will send 
out a lead to either do a threat assessment on that individual 
or to start an investigation. That coordination is done between 
ICE and the FBI on a daily basis. First.
    Second, volume. As far as volume, right now since we have 
been in existence since December 1st, we have responded to 
approximately close to 6,000 calls in total. Of the 6,000 phone 
calls that we have----
    Mr. Ruppersberger. Are those 6,000 calls from police 
officers stopping somebody or what?
    Ms. Bucella. Could be. Could be police officers stopping 
somebody, could be somebody applying for a State job, could be 
somebody that's putting bond up for an individual, it could 
be----
    Mr. Ruppersberger. Every citizen?
    Ms. Bucella. Excuse me?
    Mr. Ruppersberger. Just John Q. Public?
    Ms. Bucella. No, no. We only deal, our interface is only 
with law enforcement.
    Mr. Ruppersberger. OK.
    Ms. Bucella. So that is the volume that we have right now. 
We are increasing that volume based on the amount of data that 
we have in our system. But we do not, in our data base, have 
the derogatory information. That is the reason why they're 
there. That stays with the different agencies, whether it be 
the intelligence community, State Department, or CBP or ICE or 
FBI. But we do have accessibility to that.
    Mr. Ruppersberger. OK, Mr. Ford, you're batting cleanup. 
You've heard the testimony here today. The purpose of this 
hearing is to make the issue that we're dealing with better. 
We're trying to learn from past mistakes. Moving forward, we 
need to implement now. Based on the testimony we've heard 
today, where are we as it relates to GAO?
    Mr. Ford. I guess I want to put this in a little context, 
since I testified on this issue a year ago. I think that since 
we've pretty much been looking at this issue now for almost 2 
years, clearly the level of response on the part of the 
executive branch on this issue has deeply increased from where 
we were, say, 2 years ago. When we conducted the work last 
year, many of the handoffs, the communication between the 
agencies, the problems in notifying people on a timely basis 
was more egregious than we believe it is today.
    The analysis that's in our report was based on a sample we 
took from October to December 2003. The TSC was stood up in 
December 2003. So prior to that time, there wasn't this 
coordinating mechanism in place. Many of the actions taken by 
the agencies since we've done our analysis in our view are 
steps in the right direction.
    I think the one area that we still believe needs more 
transparency is the, a clearer statement, and we think it 
should come from DHS as the lead agency, to ensure that all of 
these improvements in the visa revocation process are properly 
codified, and in fact, we think they need to have performance 
standards that lay out how long it should take to properly 
notify one agency or another in the process. And we shouldn't 
have to run into the same problems we did----
    Mr. Ruppersberger. And would those performance standards be 
for both Department of Homeland Security and also State?
    Mr. Ford. Absolutely. We think everyone involved in the 
process needs to step to the plate in terms of taking action on 
a timely basis. The reality of it is that what we are trying to 
prevent here is a suspected terrorist that may enter the 
country legally, may be here, from doing something harmful. And 
the best way to deal with it, to counteract that, is to alert 
the appropriate officials on a timely basis. So we think those 
kinds of metrics should be included in the policies and 
procedures.
    So we think a lot of things we're doing are the right kinds 
of things. We haven't seen the metrics yet, but if they are in 
fact putting those in place, those are in our view steps in the 
right direction.
    Mr. Ruppersberger. Given that visa revocation that is 
occurring while the applicant is overseas are not subject to 
judicial review, our Chairman Shays has a bill that he's 
introduced that would also use that process in individuals in 
the United States, that if they are revoked, they would not be 
subject to judicial review. What is your opinion of his bill as 
it relates to this process?
    Mr. Ford. Well, the GAO has not, we don't have a view on 
that institutionally. We've heard some discussion from the 
executive branch witnesses here about, I guess you could say, 
the pros and cons of statutorily trying to fix this problem. I 
guess we're going to have to bow out on that. We don't have a 
view on whether that's the right way to go. We just know that 
it's an issue that law enforcement was concerned about. In our 
view, that needs to be addressed, and a policy needs to be 
established whether----
    Mr. Ruppersberger. It seems to me it's a good process, and 
it's a good idea, because it's going to make something happen. 
Thank you.
    Mr. Schrock. Before I yield to Chairman Shays, let me ask 
one thing. Ms. Bucella, I thought I heard you say, not having a 
right arm is classified. Did I misunderstand you?
    Ms. Bucella. No. There is some information that is gathered 
from our intelligence community that is source protected. For 
example, if there was an individual that was only dealt with by 
someone who was a source, but the bad guy didn't know about it, 
and the only way they would have known about it is if they had 
seen the person and this person has spent much of his entire 
career not being seen out in the public, then not having an arm 
may actually be source protected and classified.
    Mr. Schrock. Chairman Shays.
    Mr. Shays [resuming Chair]. I thank the chairman, and I 
thank the committee for their good questions, and our 
participants here.
    Basically, I have two parts to try and sort out. The issue 
of the granting of visas, and then when we've made a mistake, 
how we revoke them. I want to know, first, have we made a lot 
of progress or a modest amount of progress in getting 
information to the right people in such a timely basis we never 
even issue the visa? And then, when we've issued the visa and 
we determine it shouldn't be granted, then I want to talk about 
that. So maybe Mr. Ford, you could jump in.
    Mr. Ford. OK. I want to make sure I understand your first 
question. Before a visa is issued?
    Mr. Shays. Right, and the information we get to the right 
people, so they can make an intelligent decision. It seems to 
me when a visa is granted and it shouldn't be, that should only 
occur when information, when we didn't have information. But 
when we grant them a visa, when we had information but we 
simply failed to get it to the right people in time, then 
that's something that obviously I want to correct first. let's 
not even give them the visa.
    So can I get an assessment of how we're doing there?
    Mr. Ford. Well, let me comment first of all on the process 
that the State Department employs for approving visas itself. 
An applicant must meet the standards in the Immigration and 
Nationality Act. A consular official oversees, makes a judgment 
whether that person is eligible to receive a visa.
    Now, if the State Department has some information regarding 
an individual, or if the consular official has some suspicious 
that this individual may be a person of concern, in that case 
they would go back to the headquarters and basically have that 
person screened by a security official here in Washington. They 
may or may not grant the visa on that process. They have a 
technology system that allows them to send electronically 
information back and forth. That's real time, they can make a 
decision at that time whether a person should get a visa or 
not.
    If a person does have a visa, is granted a visa, then the 
process changes, because at that point in time, the person is 
legally entitled to enter the United States, or at least come 
to our border. And the visa revocation process, if the State 
Department gets information subsequent to the issuance of the 
visa that indicates, hey, maybe we'd better not let this person 
in here, we'd better revoke the visa, then what they want to do 
is immediately get that information to the port of entry so 
that the DHS-Customs officials can stop them from entering.
    If on the other hand, if the individual is already in the 
United States, then the problem becomes law enforcement 
following up and finding out whether that individual in fact is 
a person of concern. And that's what needs to be, that 
information needs to be timely presented.
    Mr. Shays. I'm seeing three steps. I'm seeing one, what can 
we know first, to not even grant the visa. The second is, we've 
granted them the visa, they haven't yet entered the country, 
and then the third is, they're in the country, go find them. 
Then what do you do? We don't have a legalistic issue in the 
first two stages, is that correct? That individual has no legal 
rights. If they came to the border of the United States, they 
flew in and they were not granted visa, they can be shipped out 
right away, no lawyers get to--I'm seeing nodding of heads. Is 
that correct?
    Mr. Ford. That's my understanding.
    Mr. Shays. Anybody disagree with that? OK.
    Ms. Bucella. Correct.
    Mr. Shays. Well, are you in a position to be able to assess 
the first two parts of that stage before I get to the whole 
issue of revoking a visa once they're here? Are you comfortable 
in assessing how well they're doing or not doing?
    Mr. Ford. Well, we haven't looked at the approval process 
for visas, we haven't looked at that recently. We have done 
some work a couple of years ago where we looked at the process 
prior to September 11.
    Mr. Shays. OK, so the approval process, how about once it 
was granted up to the border? Because we had interesting dialog 
in our last hearing about that.
    Mr. Ford. Again, in the course of conducting this work, we 
took a limited sample. We tried to find out the extent to which 
persons may have been stopped at the border. Based on 
information from our sample, we found that DHS had done a good 
job of stopping people when they came to the border when they 
had the information.
    Mr. Shays. Anybody want to comment on this issue?
    Ms. Bucella. Right now, if there's information on an 
individual, the CLASS system, which is entered into when 
they're approving a visa, or even reviewing the person's name, 
the CLASS system and IBIS----
    Mr. Shays. Is that State Department?
    Ms. Bucella. State Department is CLASS, IBIS is DHS. They 
are updated now on a daily basis, where previously they were 
updated, I'm not quite sure, either on a weekly basis or 
biweekly basis. But they're updated right from the Terrorist 
Screening Center on a daily basis now.
    So as to your first example, should you even give them a 
visa, at least the information as to what they need to look at 
in determining whether or not this person is or is not a known 
or suspected terrorist is available right then and there.
    Mr. Shays. So in theory, as soon as they realize they've 
made a mistake, granted a visa, that's State, they are going to 
put that in the system immediately. And in theory then, it is 
available at our border.
    Ms. Bucella. Yes, real time.
    Mr. Jacksta. That's correct, sir, and if I can just add a 
little bit onto that. What happens is that, my understanding is 
that information is real time, the connectivity between the 
Department of State data base and the data base that's used by 
our officers at the port of entry. With advanced information on 
the international air travelers and the commercial vessel 
operators, we get that information, we do the query before they 
actually arrive at the port of entry, and that allows us to 
take appropriate action where necessary to meet the flight at 
the plane side. And if we have someone who's identified as a 
possible high risk terrorist that we can actually grab them 
right at the plane side and do our inspection in the Federal 
inspection areas.
    So there is a process in place. If the name is in the 
system, we will respond and we'll stop that person at the 
border and take the appropriate action.
    Mr. Shays. I just would make a point, that in theory, this 
should work pretty well. Steps in the right direction, though, 
Senator Nunn pointed out that a deer running from a hungry 
cougar is taking steps to get away, and so it really demands 
that there be some speed in this process of steps in the right 
direction.
    How much time do I have left? [Laughter.]
    I'd rather do a second round, but you haven't gone. You 
know what I want to do? I'll defer, but I want to get into the 
whole issue of the chart on page 14. I want to make sure, do 
you all have this chart? I'm going to be asking each of you to 
respond to the whole issue of, the State has lists of revoked 
visas, 338. DHS, ICE has 347, and DHS Customs and Border 
Protection has 336. But what's interesting is, they are 
different. The list would be bigger if we added them all up 
collectively. In other words, I need to have that sorted out 
and explained to me, if we're moving in the right direction, 
why that would be a different list.
    But I'd like to defer to my colleague.
    Ms. Watson. Yes, I had a couple of questions. In reading 
the analysis of the GAO report, it says that communication 
problems across systems persist. I was listening very closely, 
probably you've answered most of this. But you report that 
there are still no written procedures for sharing visa 
revocation information among agencies. So I'd like Mr. Ford to 
respond to that.
    And in some cases, the revocation of visas takes 6 months 
or more. That's the second comment I'd like to hear. And then 
why shouldn't the revocation be grounds for removal and why 
should not, when we locate a person whose visa has expired, or 
we have some suspicion that person is connected to terrorism, 
why should they not be immediately removed from U.S. soil? Mr. 
Ford, can you lead off, please?
    Mr. Ford. OK. I believe your first question had to do with 
the policies and procedures and place. Actually, I want to put 
this in some context.
    Ms. Watson. If I may just interject, I notice it was in 
your report of 2003.
    Mr. Ford. Yes, that's correct. That's where I was going to 
begin. We've found from our work from last year that each of 
the agencies, they did have policies and procedures, but they 
weren't very clear. There wasn't much of a linkage between each 
of them in terms of how they were supposed to work together. We 
made a recommendation in 2003 that they develop such policies 
and procedures.
    Subsequent to that, the Department of State in fact did 
develop standard operating procedures for visa revocations, 
soon after that report was done. DHS, some components of DHS 
developed some policies and procedures after that. But most of 
the recent changes that are designed to tighten this process up 
have occurred after the first of this year, generally from the 
spring of this year.
    So you have to kind of track this from last year up to 
where we are now. There are many more policies and procedures 
in place that we were advocating a year ago that are now in 
place with the agencies.
    Your second question had to do with, I believe it was why 
it took 6 months for the Department of State, I'll just tell 
you that was based on the sample that we conduced from October 
to November, excuse me, from October to December and I guess 
I'll defer to the State Department on why it took them that 
long, in one case it took that long.
    Ms. Watson. All right, somebody from State can address 
that.
    Mr. Edson. Actually, if I could, on the written standard 
operating procedures, one thing that we have started working 
on, actually almost finished working on, taking our cue from 
this latest GAO report, is coordinating the SOPs of the three 
agencies involved here at the table, putting them in a 
consolidated flow chart, so that we all are fully aware in 
writing of what the other players are doing in this process. 
That was a good recommendation and we're working on it.
    Ms. Watson. Great.
    Mr. Edson. On the revocation, in the report there were a 
couple of cases mentioned. It was a small sample that the GAO 
reviewed. There were reasons for the delays. In one case, the 
individual, when the case was sent over from TSC originally, 
TIPOFF originally, it was reviewed and it was determined that 
it would not be revoked. Six months later, additional 
derogatory information was made available. At that point, the 
visa was revoked. But the gap between the original referral and 
the revocation was 6 months.
    In another case, the visa was actually revoked in the field 
by our officers for non-terrorism grounds. Six months later, 
terrorism information came up. We felt that it was the safe 
thing to do to revoke it again, just to create a paper trail 
that was explicitly linked to terrorism. So there was a 6-month 
gap in there as well.
    But those cases, I'm not saying that all cases are that 
clear. But in those cases, in any event, there were clear 
explanations, it was an accounting gap rather than a gap in 
action. There was nothing waiting for 6 months.
    Ms. Watson. Ms. Bucella, I heard you say that you can 
identify in a rapid fashion. I am just thinking that we need to 
be able to have information, and now we have the technology at 
our fingertips, because these people have been here a while. 
And they are planning probably as we speak. We need to move as 
quickly as possible, so I would hope that these long gaps would 
some way be eliminated and we can move very quickly.
    Can you comment on that again, Ms. Bucella, on the time it 
takes you to get the information from your agency to the 
others?
    Ms. Bucella. Because of the unique position that we have, 
we have State Department representatives at our agency as well 
as Homeland Security, and a multitude of, whether it's Coast 
Guard, CBP, ICE, Secret Service, we have FBI there. Because we 
have the accessibility to everybody else's data bases, we are 
able to update and upload the information real time, right from 
our center.
    So we don't have to wait for cables to go back and forth 
between the different agencies and maybe they don't get to 
where they need to get to. But we do it right from the same 
data base that's going to be accessed by those inspectors at 
our border, if we put the individual's information in because 
we found out from the State Department the person's visa was 
revoked, we put it into the IBIS system. They access the IBIS 
system right at the port and so the inspector will see right 
there that this person's visa has been revoked and they can 
deny entry right then and there. So there's not that lag time.
    And quite frankly, I can't comment on how long it took for 
the information to get to the original agencies. I can only 
speak to how long it's taking now, since the TSC has been in 
operation.
    Ms. Watson. I argued loud and long when we were developing 
the Department of Homeland Security and where the visa 
investigations and where the visa granting authority ought to 
be. I opted for the State Department because of the training 
and the experience. I know we depended greatly in my embassy on 
the consul that took care of visas. These people develop 
another sense to be able to detect that.
    Can you then instantly approach and get information from 
their data base, say in an embassy 10,000 miles away and 
there's a decision made, can you put your hands on that same 
information, Ms. Bucella?
    Ms. Bucella. If they put that information into the CLASS 
system.
    Ms. Watson. Are they doing that now, State Department?
    Mr. Edson. We use a consolidated global data base of all 
our visa transactions, all of our posts, immediately reflected 
in a corporate data base back here in Washington, a 
consolidated data base. That's accessible from the TSC.
    Ms. Watson. Very good. The other question I have, do we 
have any idea how many visitors with possible links to 
terrorism are here in the United States, and do we have any 
numbers to demonstrate improvement in the system? Are we 
catching them? And are we deporting them or whatever?
    Ms. Bucella. I can tell, since the Terrorist Screening 
Center, the way we operate is there has to be a routine law 
enforcement encounter, or there has to be some sort of a 
screening process, whether somebody's applied for a job, or 
some type of clearance. But I could not give you how many 
people are here. I can say that since we've been in existence, 
just on the known or suspected international terrorists we have 
encountered here in the United States in excess of 500 since 
December 1st.
    Ms. Watson. We are hearing about cells that possibly have 
been here in the United States for decades. I know I got a call 
from someone who said that men in robes and wraps around their 
head, and this is 10 years ago, would come and meet in the 
apartment next to me late at night. She said she was always 
wondering why they were meeting so late at night. So I gave 
that information as I heard it on to the authorities. And I do 
believe, from the way she described what was going on that 
there could be a connection.
    I know it's almost impossible for you, because you don't do 
the investigative work. But in other agencies, they are, I'm 
sure they are operating on tips of this kind. Does anyone else 
want to comment about what you think?
    Mr. Schoch. If I can just comment first on the visa 
revocations themselves. Any referral that we get from the State 
Department is aggressively pursued to its end. Be it we take an 
administrative action, there might even be a criminal action 
possibly that result, or we clear the person. So that in this 
whole process, and there are many departments involved and 
agencies within, on any referral which basically starts with 
the State Department, where they notify us that there's been a 
visa revocation, we exhaustively look at every and all of those 
leads. And we're confident that we're looking at those and 
investigating those to the end, to where we can take an action 
or no action if necessary.
    Ms. Watson. That information then is shared across the 
agencies, and we talked about procedures. But is it your 
feeling, Mr. Ford, that those procedures need to be 
strengthened?
    Mr. Ford. I think our view is that we want to see, the 
comment was made that currently, the procedures of the three 
agencies are now talking to each other, and they're going to 
share them. I think we want to see that and make sure that 
everybody is fully aware of what everybody else is doing, and 
that the next time there's a hearing on this issue, everybody, 
we won't find the same kinds of problems we found in the 
current report.
    Ms. Watson. I thank you, and let me give my time back to 
the Chair.
    Mr. Schrock. Well, the artificial Chair would like to make 
a comment. [Laughter.]
    Kind of a followup on what the Ambassador was asking. Can 
we ask for the following documents for the record, letters 
between State Department and DHS, agreeing on rewording the 
revocation in specific cases, and the flow chart that details 
the steps of all involved agencies? Thank you.
    Let me ask one----
    Mr. Shays. Just to clarify, so we're aware, who is going to 
give us which of that? State and----
    Ms. Bucella. We'll give you the business process that we've 
documented now.
    Mr. Shays. And the letters?
    Mr. Schoch. Both DHS and State.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8048.049
    
    [GRAPHIC] [TIFF OMITTED] T8048.050
    
    [GRAPHIC] [TIFF OMITTED] T8048.051
    
    [GRAPHIC] [TIFF OMITTED] T8048.052
    
    [GRAPHIC] [TIFF OMITTED] T8048.053
    
    [GRAPHIC] [TIFF OMITTED] T8048.054
    
    [GRAPHIC] [TIFF OMITTED] T8048.055
    
    [GRAPHIC] [TIFF OMITTED] T8048.056
    
    [GRAPHIC] [TIFF OMITTED] T8048.057
    
    [GRAPHIC] [TIFF OMITTED] T8048.058
    
    [GRAPHIC] [TIFF OMITTED] T8048.059
    
    [GRAPHIC] [TIFF OMITTED] T8048.060
    
    Mr. Schrock. One of you was comment earlier about 
information such that if somebody lands in an airplane, you can 
yank them right off the plane. What about ports, shipping 
ports? Mr. Ruppersberger represents the Port of Baltimore, I 
represent the Port of Hampton Roads. It's been a problem where 
I live. People have jumped ship. Fortunately they've been able 
to find them. Is the same process in place for that?
    Mr. Jacksta. Yes, sir, the same process takes place whether 
at the airports, the land border locations or seaports. In the 
seaports, we work very closely with the Coast Guard.
    Mr. Schrock. OK. Port security is my No. 1 issue and has 
been for a long, long time, continues to be and will probably 
continue to be, because that's, the massive military presence 
in Norfolk and of course the commercial port is of great 
concern to me.
    I understand the difficulties of pursuing, questioning and 
apprehending these aliens who have had their visas revoked, 
especially since the agencies charged with doing so have 
limited resources and frankly are still underinformed as to the 
reasoning for the revocation, whether it's terror related, 
criminal or simply administrative.
    In any event, what programs are being utilized to engage 
the public in helping Government agencies with these 
identifications and ultimately removals? For example, have we 
considered utilizing the Federal air waves to broadcast the top 
10 aliens wanted, similar to a John Walsh type show or anything 
along those lines, photographs on milk cartons have played a 
significant role in finding lost and apprehended children. I 
frankly think an informed American public would respond 
favorably and effectively to such programs that are in the 
interest of national security. Any comments? I know you don't 
want to get into the milk carton business.
    Mr. Jacksta. I can make a quick comment that, at a number 
of our ports of entry, we do have various posters up in place 
of individuals that have been identified not only for terrorist 
related activities, but other types of criminal activities that 
may come across specific locations on a regular basis. In 
addition to that, we also have Web pages we can go to where 
there are pictures of individuals and it allows the general 
public to pull up information if necessary.
    Mr. Schrock. I don't know about any of you here in this 
room, but I get things in my mail at least once a week about 
this big having two children's names or adult's names. You know 
what, I read those things now. I never did before. But I do 
now, and I'm just wondering if you had something like this for 
the terrorist element if people might be more inclined to look 
at that, and that might help as well. I mentioned we have the 
ports of entries also, it's not unusual for us to receive 
letters from the general public about issues or concerns or 
people they've identified. And we work very closely with the 
JTTFs and ICE to followup on those. So if the public does get 
something to us, there is a procedure in place.
    Mr. Schrock. This is for State and DHS. In what types of 
cases will the State Department agree to change the wording of 
the revocation certificate? It's loaded, isn't it?
    Mr. Edson. The answer is, when we're asked by DHS. That's 
the agreement we reached, is when DHS feels it's appropriate, 
that the risk to national security is such that it 
counterbalances the down sides of a request, and we've 
identified in our exchange of letters formal channels of 
communication, the people who should be doing this.
    Mr. Schrock. Well, let's turn that around. When will DHS 
ask the State Department to agree to wording of the revocation 
process?
    Mr. Schoch. I think initially, as we start out this, we 
will look at very limited, in the most egregious of situations, 
where we can't take any action administratively based on the 
removable grounds that exist presently. Possibly we cannot 
declassify national security information because of sources, 
compromising sources and so forth. I believe in the most 
egregious situations we would exercise this option now, to go 
back retroactively and use this.
    Mr. Schrock. OK, for the State Department. Does the State 
Department support the DHS draft regulation regarding removing 
individuals from the country based on a visa revocation?
    Mr. Edson. I haven't seen that draft in many months. I 
wasn't working that issue particularly, so I can't comment on 
that.
    Mr. Schrock. All right. You just killed the rest of my 
questions. [Laughter.]
    Mr. Shays. That's why he's the witness, because he hasn't 
seen it. [Laughter.]
    But you know what, the answer is very serious. We do need 
an answer. And we should be prepared to give an answer to that 
question.
    Mr. Edson. We'll take it and respond for the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8048.061
    
    Mr. Shays. Yes. I think what we want is a response in the 
next week as to what the position is, so someone looks at it 
and tells us their position.
    Mr. Edson. Essentially from the beginning our position on 
this has been that this is a DHS function, and is not directly 
related to the visa function at all. DHS manages removal from 
the country. That's the short answer. But we'll get you 
something more formal.
    Mr. Shays. But we're all from the same country.
    Mr. Schrock. Let me just ask one final question of State 
and DHS. Is a legislative change required to allow immigration 
officials to remove aliens with revoked visas from the country? 
Do we need to do it legislatively?
    Mr. Schoch. I think at this point, as you know, DHS in 
earnest is looking at a regulatory fix. As you pointed out, 
myself personally and speaking on behalf of DHS and ICE, I 
think it's an option that we should explore. I think there's 
probably a lot of complex issues and policies associated with 
the regulation. I don't think we should lose this opportunity 
to at least look at it and entertain it.
    Mr. Schrock. Exploring says to me, studies which take 
forever and ever to get done.
    Mr. Schoch. Yes, again, I would really have to seek more of 
their opinion from our Office of General Counsel as to the 
specifics in more detail on just what we would have to look 
into. But I think in general, it's something that we should 
probably look into.
    Mr. Schrock. Is there any sort of statutory authority that 
you could recommend?
    Mr. Schoch. I don't think anything comes to mind.
    Mr. Schrock. Thank you, Mr. Chairman.
    Mr. Shays. I want to pursue the question on the GAO report 
entitled, ``Border Security: Additional Actions Needed to 
Eliminate Weakness in the Visa Revocation Process.'' Turning to 
page 14, basically State has one list of the revocation number 
of 338, you have DHS at 347, Immigration and Customs which are 
basically the cops in this program, the Border folks have 336. 
GAO did an interesting way with the circles. All of you have 
320. State has two that are not listed in the other two. DHS 
has, ICE has three not listed with either. And Border has zero 
not listed with either.
    You look at it and you find that DHS has 12 that are with 
State, but not with Border, ICE has 12 with Border that aren't 
with State. It sounds a little confusing, but the bottom line 
is we have different numbers. Why wouldn't this number be the 
same? And what are your agencies doing to reconcile these 
different numbers?
    Mr. Edson. This was one more aspect of the GAO report that 
we found helpful, and we have, as was mentioned earlier, 
created a unified, a single reporting and recording mechanism 
for us to use and regular audits will cross-check the numbers.
    The way that these cases are listed, there are overlapping 
watch listings for all these individuals that are generated by 
the TSC or by the State Department or by DHS. So we believe 
that the security of the system is sound. An auditable, a 
verifiable audit trail, though, would give us all more 
assurance. That's why we'd like to have these numbers matching.
    Mr. Shays. I'd like to have, I guess what I'm having a hard 
time, liking it to happen and why it isn't happening is my 
problem.
    Mr. Edson. In this case, GAO took a sample that was time 
constrained and began on a date, ended on a particular date. 
Our interaction with those, matter of fact, State started the 
process with two disparate lists. We ran a report of the number 
of cases in the watch list system with a revocation code and 
subsequently ran a report of the number of cases that were 
revoked with the formal signature on the revocation certificate 
during that time period. The entry into the watch list system 
happens immediately. Deliberation occurs before the revocation 
certificate is generated and signed. So there were some cases 
that fell outside of the timeframe on those two lists, and the 
numbers did not agree on the two lists. It would only have 
agreed when both the watch listing and the revocation took 
place during the time period.
    We feel that is probably the bulk of this.
    Mr. Shays. But even that, why would it have to take more 
time? Is it kind of like cars when they're at a red light, the 
first car goes and the second waits until the first one has 
left, and it's like this slinky? Why wouldn't they all move at 
the same time?
    Mr. Edson. We enter the watch list entry, the visa 
revocation watch list entry immediately just to indicate that 
we are reviewing a case for possible revocation to provide an 
alert to DHS. The revocation itself is a deliberative process, 
involves getting access to the classified derogatory that 
underlies the lookout from TSC or the referral froM TSC. 
Sometimes it involves further research and review of legal 
issues. We don't always revoke the cases that are referred to 
us by TSC. Almost always, but not always. So there's a period 
of a couple of days, a couple of weeks, where the deliberation 
is going on before the revocation certificate is signed.
    In that interim period, however, the cases have already 
been watch listed by TSC as possible terrorist cases. We have 
already watch listed it as a revocation case under review. So 
it's that gap that I think is responsible for some of the 
difference in numbers.
    Mr. Shays. And it needs to take a couple of weeks?
    Mr. Edson. It needs to take several days, a couple of days. 
We're getting access to classified material, it doesn't come 
over--sometimes there's a lag in there in getting access to the 
material and reviewing it. Again, the case has already been 
watch listed. The individual cannot enter the United States. 
And the derogatory that we get for revocation is also getting 
passed to DHS, in the event that it's extremely serious and 
specific derogatory information, so that they're able to act on 
it.
    Mr. Shays. Wy did it take State at least 6 months, and as 
much as 17 months to revoke visas in at least three cases? I 
would like to know the cases, but is that something you can 
speak to?
    Mr. Edson. These are the three cases out of the GAO report 
that we checked on. I don't want this to sound like an excuse, 
but there actually are reasons in these three cases. In one 
case, the case was referred to us originally, we declined to 
revoke, 6 months later got additional derogatory information 
and then did revoke, so the gap between referral and 
revocation.
    The other two were cases that were revoked overseas first, 
for non-terrorist grounds and then subsequently revoked for 
terrorist grounds. So there's that gap.
    Mr. Shays. Anybody else want to respond to these?
    Mr. Jacksta. Yes, sir, I do. First of all, I want to say 
from DHS' perspective at CBP, we're also concerned about the 
numbers. Obviously we're going to go back and take a look at 
this, work with GAO to find out exactly what the problems were. 
Because I think we all agree that we can't have people being 
missed and can't be on separate lists. So we'll take that back 
and work on it.
    But there are a couple of things that we've already 
institutionalized to get going on it. The first one is that 
because of this concern and the initial observation we've 
established a mechanism now between Department of State, DHS 
and the two agencies, CBP and ICE, to verify on a weekly basis 
how many new revocation records have been established by 
Department of State, so there's no confusion on the exact 
number every week that's added to the system. So that's one of 
the first thing.
    The other thing I think is important to note, although the 
person may not be in the system as a revocation, the fact is 
that the derogatory information will probably be in the IBIS 
system. So the person would be stopped. The question is whether 
you would be able to do, at the border, if you can revoke the 
person's visa and send them back. That's what we're working 
with Department of State, to have that capability that if we 
discover someone at the port of entry through another 
mechanism, through another data base or through the inspector's 
questioning that might be identified as someone who's related 
to terrorism, that we can work with Department of State to have 
the visa revoked right then and there, and have the person 
returned.
    So I want to get on record to say that even though the 
record may not show a revocation, the system, the data bases 
available, will allow us to hopefully identify the individual 
and still stop them at the border.
    Mr. Shays. Mr. Schoch, do you have----
    Mr. Schoch. Yes, to add to this that again, just expounding 
on what Mr. Jacksta said, we every week reconcile the list now, 
to make sure that whatever we've received is exactly what State 
Department has. We also have a full time person at the NTC----
    Mr. Shays. You're not doing it like a checkbook, where you 
can't figure out why it doesn't balance, you just accept it? 
[Laughter.]
    Mr. Schoch. No, what we do is we have actually a 
spreadsheet, and we go through and----
    Mr. Shays. And you try to figure out where the difference 
is?
    Mr. Schoch. If there are differences, exactly, we work 
through the discrepancies, so that we don't get to this point 
where we have these numbers reflected as they are today in this 
report.
    Mr. Shays. When I think of the challenge we have here, I'm 
thinking I accept it logically and then another part of me 
says, this is crazy, it's a no-brainer. If you can revoke, if 
you can decide not to give someone a visa, they don't have a 
hearing, correct? You make an administrative decision.
    If someone at Border Patrol can decide to not allow someone 
to enter, even though they have a visa, it's decided in a sense 
administratively, it's decided by that individual, based on the 
documents they have, without a so-called legal process, why 
does a legal process occur once someone's in the United States? 
What triggers that legal process in the minds of all of you 
that suggests that somehow we have to handle this differently?
    Mr. Schoch. If I can just comment, if somebody is picked up 
based on that revocation, and let's say we have now employed 
this new----
    Mr. Shays. They're in the United States of America.
    Mr. Schoch. They're in the United States.
    Mr. Shays. As our guests, as a privilege.
    Mr. Schoch. Correct. And we've gone now retroactively. They 
are entitled to a hearing before an immigration judge. They 
have a hearing.
    Mr. Shays. And that is based on statutory law again, or on 
regulation?
    Mr. Schoch. On statutory law.
    Mr. Shays. OK. And it is outside the typical, it's not part 
of our civil or criminal justice, it's part of DHS immigration 
process?
    Mr. Schoch. Correct.
    Mr. Shays. OK. And just fairly quickly tell me what that 
means. What are they entitled to?
    Mr. Schoch. They are entitled to go before an immigration 
judge.
    Mr. Shays. With counsel?
    Mr. Schoch. Right, with counsel, not appointed, but counsel 
that they have to acquire themselves.
    Mr. Shays. Are they incarcerated during that time?
    Mr. Schoch. We basically make a determination of detention, 
whether or not they meet the criteria of being detained. It is 
possible that they will be detained. They have a right to a 
review of that before the immigration----
    Mr. Shays. Do we have the delays like we've had where 
people literally, in some instances, they ask for political 
asylum and they're given a hearing a year later and they're 
just allowed to go into the countryside? Is this process at 
least quick? Or could it take months or longer?
    Mr. Schoch. I think it can take months sometimes.
    Mr. Shays. See, I don't understand that at all. I mean, we 
don't have that many where we might have to revoke. So for me, 
it would strike me that, you can't kick them out without this 
process, and maybe I can accept the fact that somehow they got 
through the system, so we blew it. But so now, they're entitled 
to privileges that they didn't encounter when they were 
requesting or when they came. So I understand that. And I also 
understand the reality that they may be living with an American 
and the American's making plain that, it can be a family member 
and all that.
    But what I don't understand is why it would take so long. 
So someone explain to me, if we've identified this as a 
concern, why the heck is this part of the process taking so 
long? Anybody able to answer?
    Mr. Schoch. I would just add that they're entitled to go 
before the immigration judge. They may have petitions pending. 
They may seek asylum. There are various things that trigger 
throughout that proceeding that could delay this, not from day, 
but could turn into months. I don't know specifically, I can't 
give you a hard and fast on how long it does take.
    I can just tell you from my experience with our cases, once 
you go through the immigration administrative system there, it 
could take months.
    Mr. Shays. OK. And we could put legislation in that would 
basically just say once it's been denied, they go home without 
that process, and it wouldn't take any time. There would be 
some civil liberty issues, I gather, from some. Anyone else who 
wants to comment?
    Let me just end with this. How many of these individuals 
may still be in the country, those who have revoked visas? I'd 
like an answer from all three.
    Mr. Schoch. I will start. ICE has investigated, thoroughly 
investigated every, thoroughly investigated, either we have 
continued to investigate or have investigated every referral 
that we get from the Department of State. I don't have an exact 
number, but I assure you that every case where we cannot take 
either an administrative action based no a removable ground 
that's available to us, we would seek some assistance from 
State, using some type of retroactive----
    Mr. Shays. Why would I feel comfortable with you not 
knowing the answer to that question? Why should that make me 
feel like that's acceptable? I mean, we're having a hearing on 
revocations. I would think that would be one of the basic 
answers.
    Mr. Schoch. Sure. Most of the cases that we do get that are 
referred to us that have visa revocations are found not to be 
in the United States, a vast majority of those cases. Those 
cases that end up going to the field are later determined to 
have departed or they are later determined not to be the person 
or a person of national security----
    Mr. Shays. OK, that doesn't really answer the question. Are 
you saying there's nobody?
    Mr. Schoch. I'm saying the cases we have looked at now that 
we don't have any persons that we would deem a national 
security threat.
    Mr. Shays. That's not what I asked. The question is, how 
many people are here under revoked visas?
    Mr. Schoch. I wouldn't have that number available to me.
    Mr. Shays. Do you know, Mr. Jacksta?
    Mr. Jacksta. No, I don't, sir. I can tell you that when we 
get the name of a visa revocation from the Department of State, 
we go through our systems and determine if anybody possibly 
entered the United States. We use our data bases and our 
systems and that information is passed over to ICE for 
investigation.
    Mr. Shays. Ms. Bucella, do you have that number?
    Ms. Bucella. We've only looked at it since the 6 months, so 
I don't have the cases that GAO looked at. But in the 6 months, 
we've looked at 332; 118 have expired visas. Revoked visas are 
147.
    Mr. Shays. Hold on a second. Put the mic a little closer.
    Ms. Bucella. I'm sorry. During the 6-month period from 
December 1st to June 9th, we looked at 332 cases which included 
expired visas, revoked visas and pending revoked visas. There 
were 118 expired visas, revoked visas there were----
    Mr. Shays. So the 118 means they didn't even attempt to 
come into the country?
    Ms. Bucella. Yes. Expired visas?
    Mr. Shays. I need to understand. We don't want bad 
information.
    Ms. Bucella. Right. We believe that there are 44 in 
country. That's the bottom line. From the numbers that we 
looked at.
    Mr. Shays. OK, so it's your numbers, you think you have 44.
    Ms. Bucella. But that's, we are not looking at the total 
number of visas. We're only looking at those visas that we 
looked at from December 1st through June 9th of this year.
    Mr. Shays. Just walk me through why I should feel, I mean, 
I'm getting uneasy. I was feeling better, I was feeling like 
maybe the deer was running away from the cheetah faster than 
cheetah. But it seems almost like this is a basic question and 
I'm not getting, I don't feel a sense of concern or urgency or 
anything here. I just feel like--well.
    Ms. Bucella. One of the processes is trying to determine 
where these individuals are. One of the challenges that we 
believe happened was that while these people were, the question 
was whether or not they were in country or not. ICE then had to 
first determine who was looking at the individual, who had the 
derogatory information. Right now, based on the FBI's 
relationship with ICE, FBI is turning over their files to ICE 
real time so that they can first figure out if it is in fact an 
FBI matter. Or we are sharing our information with ICE as to 
whether or not the underlying derogatory information is with 
another agency and which agency that is.
    Mr. Shays. Would you define the 118 number again? I'm 
unclear as to what that means. You have 118 that are----
    Ms. Bucella. Expired visas.
    Mr. Shays. Elaborate. What does that mean, that they came 
to the United States and they----
    Ms. Bucella. They could either, they were in the United 
States and left, or they never came into the United States, the 
time period for the visa had expired.
    Mr. Shays. OK, and those are revoked visas?
    Ms. Bucella. No----
    Mr. Shays. They were revoked beforehand?
    Ms. Bucella. No, no. That's a different number. There are 
three different kinds. There are expired visas, there are 
revoked visas, and then there are those visas that are pending 
revocation. That means that they're gathering up the derogatory 
information.
    Mr. Shays. I was really asking about the revoked and the 
pending. I just didn't understand why expired related to my 
question. That's why I was confused. Why does it relate to the 
question I asked? The question I asked is, how many revoked 
visas do we still have, that are still in the country? In other 
words, individuals who have revoked visas that are still in the 
country. I don't have an answer to that question.
    Ms. Bucella. Forty-four.
    Mr. Shays. Forty-four. OK, now, you're saying 44, and Mr. 
Schoch is saying basically zero. Walk me through the 
difference, Mr. Schoch.
    Mr. Schoch. Well, if I can add, it's definitely not zero. 
The number is constantly updated. If I was to throw out a 
number to you today, I would not want to be telling you the 
wrong number than what it's updated.
    Mr. Shays. So if you were to make a phone call right now, 
there is someone who could answer the question of how many you 
have?
    Mr. Schoch. I know today based on the investigations that 
we have conducted, we know exactly how many people have revoked 
visas who may be in the United States----
    Mr. Shays. OK, hold on 1 second. Ambassador, do you have 
any more questions? Because if you do, I'll give him time to 
call up somebody here.
    Ms. Watson. No, I was following your line.
    Mr. Shays. OK, let me do this. Would somebody on your staff 
make that call right now and we'll adjourn as soon as we get 
that number. So will someone pursue that?
    Mr. Schoch. We're going to pursue it right away.
    Mr. Shays. OK. Congressman Moran has an office over here, 
you can just make a call.
    Ms. Watson. Mr. Chairman, I was getting ready to leave, 
because I understand we're going to have two or three votes.
    Mr. Shays. Right.
    Ms. Watson. That can be given to us.
    Mr. Shays. I'm willing to wait. I'm not going to adjourn 
until we get the number. But if you have some questions, I'd be 
glad to fill in.
    Ms. Watson. No, I was following yours. Thank you.
    Mr. Shays. OK. Well, what else do we talk about here while 
we're waiting? Mr. Ford, what do you have? How are you acting? 
What's important about this dialog and what isn't? I want the 
chaff from the wheat in this dialog.
    Mr. Ford. Well, it seems to me that if in fact they're 
tracing the visa revocations, they ought to be able to tell you 
how many they suspect are still in the country. I also think 
that they ought to be able to tell you the disposition of their 
investigations in terms of how many people were cleared, how 
many people were judged to be people of concern. And it seems 
to me that they ought to keep that record in a way that on a 
daily basis they would know that kind of information.
    Mr. Shays. Let me ask, Mr. Jacksta and Mr. Schoch, why 
wouldn't that, it seems logical to me, so why wouldn't that be 
true? How would you disagree with what Mr. Ford said? Mr. 
Jacksta.
    Mr. Jacksta. I would begin, sir, by indicating that we 
clearly want to identify the individual at the port of entry 
when they arrive, and we want to stop them right there. If they 
get into the United States and they didn't have a revoked visa 
but later on, information is obtained and the visa is revoked 
and they're in the United States, we need to find them and 
identify who they are.
    The process is that when a visa is revoked and we receive 
it, we go through our data base systems to see, based on the 
information that we have, did the person arrive at our port of 
entry. Then what we quickly do is we look to see if there's 
information that indicates that the person left. Those people 
that have not left, are still in the United States, are 
referred to ICE and then at that point they take over the 
investigative side of the house.
    Mr. Shays. OK. Thank you. Mr. Schoch, do you have some 
comments on that?
    Mr. Schoch. Just to let you know, I have some preliminary 
numbers, and I can followup with these. We have 37 that were 
referred to the field, 37 cases presently in the field and 
we're reviewing 20 currently. And I will say that a large 
number of the 20 reviewing do not get out to the field, because 
most of these people have either found, most of them have been 
found to have not entered or to have departed.
    Mr. Shays. OK. Of the particularly egregious cases, do we 
then, even if they have left, do we try to track who they have 
been interacting with?
    Mr. Schoch. That's correct. That's why these cases are 
handled by the Joint Terrorism Task Force, so we're not just 
looking at that individual, but anybody that they may have 
touched, their footprints, and absolutely exhausting any type 
of a lead that may come out of that, on associates or----
    Mr. Shays. So just relate now the 44 versus 37. I can 
understand the difference between 20 and 37, but what's the 
difference between 44 and 37?
    Mr. Schoch. Well, the 37 could jump up to 44.
    Mr. Shays. But you don't mean 20 in addition to the 37?
    Mr. Schoch. That's right, they're at headquarters.
    Mr. Shays. I'm sorry, I thought that was 20 out of the 37.
    Mr. Schoch. No.
    Mr. Shays. OK. Do you have any questions?
    Ms. Watson. Mr. Schoch, the 37 that are in the field now, 
are we constantly following and monitoring their actions and do 
we have geographical locations that we could trace their 
whereabouts? How do we track them in the field?
    Mr. Schoch. We first of all have a lead tracking system 
here at headquarters that gives us specific timeframes when to 
call up, when to be looking again at what field action has 
taken place on those, as well as we use a TECS system, TECS-II 
that actually is a case management system. It provides for a 
refresher every 30 days from the field. The field has basically 
7 days when they receive the lead to act on it. Then they have 
every 30 days thereafter, they have to update us with 
additional information.
    So we have a very tight control over exactly what's 
ongoing. We have an agent at headquarters devoted just to this, 
that they are looking at exactly what investigation has been 
done, almost a quality control, if you will, to look at exactly 
what measures have been taken, investigative measures that have 
been taken.
    Ms. Watson. Are there any clustering of these 37 around New 
York and Boston?
    Mr. Schoch. I would have to look into that. I don't know 
that to be a fact.
    Ms. Watson. What keeps coming back to haunt me, and I'm 
sure the rest of us, is that those involved in September 11, 
particularly those who went to flight school, I think it was 
down in Florida, 6 months after September 11, their visas were 
approved for them to take flying lessons.
    So time is of the essence. If we have 37 people in the 
field, we need to be tracking them very closely. We've heard 
rumors, and we've seen a heightened alert that we might be 
attacked around the November election or around our 
conventions. Though I would think that actions need to be 
speeded up and we need to do our due diligence and make it a 
top priority.
    Thank you, Mr. Chairman.
    Mr. Shays. Is there anything, Mr. Ford, or anyone else, 
that you need to put on the record? Is there any information 
that we've asked that would not be, the answers would not be 
accurate and we could come to some false assumptions? Is there 
any correcting of the record that needs to be put on? Is there 
anything you are prepared to answer that we should have had the 
good sense to ask but didn't that needs to be part of the 
record? Mr. Ford.
    Mr. Ford. I don't really have any comments, Mr. Chairman. I 
believe at least from GAO's perspective, you've asked a lot of 
questions that are germane to the issue. I don't really have 
anything more to add to that.
    Mr. Shays. Mr. Edson.
    Mr. Edson. In the discussion on numbers, a visa can be 
revoked for any grounds under the law. We've been discussing 
terrorism here, but that, I think it is important to bear in 
mind that revocations cover the whole spectrum of immigration 
law. Sometimes that can cloud the numbers.
    Mr. Shays. Ms. Bucella.
    Ms. Bucella. Nothing.
    Mr. Shays. Thank you. Mr. Jacksta.
    Mr. Jacksta. No, sir.
    Mr. Shays. Mr. Schoch.
    Mr. Schoch. No, sir, thank you.
    Mr. Shays. I believe all of you have a very difficult job. 
I think you are working night and day to deal with this issue. 
I realize that we have a policy issue as it relates to the 
rights of people once they appear to be here. And that is 
something that Congress has to decide. And given we've 
overstepped our bounds in terms, in my judgment, calling people 
enemy combatants and some other challenges, I'm sure this will 
become even a more sensitive issue.
    But I am struck with the fact that it's difficult to 
reconcile that we can say no at the beginning, we can say no at 
the border, but once they're here we can't. If we're the ones 
who screwed up and we think it's a problem, I just don't know 
why we can't act more quickly. It does strike me that if we 
think someone is here on, basically and shouldn't be here, that 
we should be acting quickly to deal with at least that part of 
the question.
    But I have a lot of respect for what each of you do and I 
thank you very much for your participation. Thank you.
    At this time, the hearing is adjourned.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8048.062

[GRAPHIC] [TIFF OMITTED] T8048.063

[GRAPHIC] [TIFF OMITTED] T8048.064

[GRAPHIC] [TIFF OMITTED] T8048.065

[GRAPHIC] [TIFF OMITTED] T8048.066

[GRAPHIC] [TIFF OMITTED] T8048.067

[GRAPHIC] [TIFF OMITTED] T8048.068

                                 <all>

</pre></body></html>
